 

In THE

Supreme Court of the Anited States

TRANS UNION LLC,
Petitioner,
v.
SERGIO L. RAMIREZ, individually and on behalf of all
other similarly situated individuals,
Respondent.

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Constitutional Accountability Center as Amicus Curiae in Support of Respondent
contains 7,471 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 10, 2021.

‘Bria ( Hed)
Brianne J. Gorod

Counsel for Amicus Curiae
